IN THE

SuPremeClTu7i

FILED

SUPREME COURT OF THE UNITED STATES

• US.

JUN 2 4 202/
2ss^°EMclefik

NOEL ALDANA — PETITIONER

$u$°£D r0

i'

VS.

sf)fi

SECRETARY, F.D.O.C. — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals for the Eleventh Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
Noel Aldana #J42034
(Your Name)
Sumter Correctional Institution
9544 C.R. 476-B
(Address)
Bushnell. FL 33513-0667
(City, State, Zip Code)

(Phone Number)

i

RECEIVED
JUL 1 4 2021

QUESTION(S) PRESENTED

Does a meritorious claim that a pro se Petitioner raises which clearly
present and meet the cause and prejudice standard addressed in the
Strickland v. Washington ruling overcome the bar of untimeliness?

Does a Double Jeopardy Violation that is on the face of the record and
properly raised on a petition/motion correctable by the honorable Supreme
Court of the United States?

t

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
i

i

t

RELATED CASES
1

Nm

i

i

\

*

!
1

1

TABLE OF CONTENTS

$

i

OPINIONS BELOW
JURISDICTION

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED....3
STATEMENT OF THE CASE

V

REASONS FOR GRANTING THE WRIT

S-9

CONCLUSION

10

INDEX TO APPENDICES

i

APPENDIX A United States District Court Order of Denial
APPENDIX B United States Court of Appeal Order of Denial
APPENDIX C United States Court of Appeal Order of Denial of
Petitioner Motion for Reconsideration
r

i

i

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Alabama Vs. Smith, 109 S. Ct. 2201 (1989).............

7

Albernaz Vs. U.S., 101 S. Ct. 1137 (1981)................

7

Blockburger Vs. United States, 52 S. Ct. 180 (1932)

G

Brinegar Vs. U.S., 338 U.S. 160 (1949).............. :.....

€

Jackson Vs. Virginia, 443 U.S. 307 (1970)................

8

Jone v. Tomas; 491 U.S. 376 (1989)..........................

9

Leland Vs. Dregon, 343 U.S. 790 (1952)...................

8

Pizzo Vs. State, 945 So. 2d 1203 (2006)....................

7

Strickland Vs. Washington, 466 U.S. 688 (1984).....

G

United States v. Halper, 490 U.S. 435 (1989)..........

9

United States Vs. Kaiser; 893 F.2d 1300 (1990)......

7

STATUTES AND RULES
Section 817.034(4)(a)2, Florida Statute

£

Section 817.48l(3)(a), Florida Statute..

7

Section 812.014, Florida Statute..........

9

OTHER
Fourth Amendment of the United States Constitution

6

Fifth Amendment of the United States Constitution

6

Sixth Amendment of the United States Constitution
Fourteenth Amendment of the United States Constitution

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix C
the petition and is

to

[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[vf is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ j reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[Vj is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

i

JURISDICTION

[i^For cases from federal

courts:

The date on which the United States Court of Appeals decided mv case
was Jdj l Hj 2021 _________
[ ] No petition for rehearing was timely filed in my case.
[rfA timely petition for rehearing was denied by the United States Court of
*///*//2011_______ , and a copy of the
Appeals on the following date:
order denying rehearing appears at'Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
-------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

X

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Petitioner’s Fourth Amendment of the United States Constitution
was violated.
The Petitioner’s Fifth Amendment of the United States Constitution
was violated.
The Petitioner’s Sixth Amendment of the United States Constitution
was violated.
The Petitioner’s Fourteenth Amendment of the United States
Constitution was violated.

3

«'

STATEMENT OF THE CASE

This pro se Petitioner strongly asserts to have a major Double Jeopardy
Violated “that is clearly on the face of the record” corrected by the Lower
State Court’s and then by the honorable United States District Court Judge
and lastly by the honorable United States Court of Appeals. The Petitioner
has attached portion of the record which presents the two prongs “Cause and
Prejudice” that the honorable Supreme Court of the United States ruled in
Strickland must be presented for a Petitioner to overcome the untimeliness
bar.
This Petitioner argues that the honorable United States Court of
Appeal Judge had lawful jurisdiction in which to address the merits of
Petitioner’s claims, clearly addressed a fundamental error that surrounded
around the Double Jeopardy Clause.

H

REASON FOR GRANTING THE PETITION
This pro se Petitioner strongly argues that the honorable State and
Federal Courts have continually violated his federal Due Process of Law
rights when they have failed to address each of Petitioner’s claims. As this
Petitioner clearly argued how the State Prosecutor failed to present at
Petitioner’s Plea/Sentencing Hearing any evidence that proved that this
Petitioner had defrauded the alleged victims as Section 817.034(4)(a)(2,
Florida Statutes prescribed.
As this pro se Petitioner has thoroughly argued that the State of
Florida provide no evidence at the plea or sentencing hearing to prove he was
involved in the scheme to defraud second degree felony. Especially when the
State Prosecutor charged the crime as a Second Degree Felony and the
amount fell way short of the $20,000 to $50,000 dollars requirement. As the
Plea Colloquy/Sentencing Hearing transcripts * (Attachment) clearly reflect
how a Detective named Stephen Greer solely testified on behalf of the State
Prosecutor that pursuant to his investigation the Detective was able to
encounter how the victim’s stolen credit card had been utilized by this
Petitioner to purchase items at Wal-Mart; Home Depot and Flash Foods that
totaled $886.57 cents. There is no doubt that the State Prosecutor petitioned
for a hearing two years after Petitioner had been sentenced so that
supplemental evidence that raised Petitioner’s restitution to $15,411.10 cents

S

could be entered into the honorable State Court’s file and only by doing such
an illegal procedure was the State Prosecutor able to meet the critical
element for this Petitioner to be sentenced to a Second Degree Felony but
that in itself did not cure the harmful error the State Prosecutor or the State
Sentencing Judge committed.

As the prejudice this Petitioner suffered

resulted in this Petitioner being sentenced to fifteen years for a Second
Degree Felony following 5 years probation to run consecutive to his
incarceration, in which the State lacked the sufficient evidence. At most this
Petitioner should have been sentenced to a Third Degree Felony and been
sentenced to five years but the fundamental violation has been allowed to
stand uncorrected and this Petitioner forced to serve an illegal sentence
which is contrary to the honorable Supreme Court of the United States ruling
in Strickland v. Washington, 466 U.S. 688 (1984). Petitioner’s Fourth! Fifth!
Sixth and Fourteenth Amendment have been continually violated by the
State and Federal Court’s when they fail to make a lawful determination of
the legal finding that Petitioner’s claims raise.
As the most critical violation which this pro se Petitioner has properly
and thoroughly argued in the honorable Federal Court’s revolved around the
Double Jeopardy that the State and Federal law protect this Petitioner. As
the honorable Supreme Court of the United States specifically ruled on in
Blockburger Vs. United States, 52 S. Ct. 180 (1932). This Petitioner has cited

the Blockburger ruling, as well as numerous other Federal Court ruling that
addressed this critical Double Jeopardy violation. This Petitioner directs the
honorable Supreme Court of the United States Justices attention to United
States Vs. Kaiser, 893 F.2d 1300 (llth Cir. 1990); Alabama Vs. Smith, 109 S.
Ct. 2201 (1989) and Albernaz Vs. United States, 101 S. Ct. 1137 (1981)
because in each of these Federal Case laws its clear how Kaisef, Smith and
Albernaz constitutional rights against being placed in jeopardy twice was
found to exist and their sentences reversed. This Petitioner has argued how
he entered into an open plea “due to the advice of defense counsel” to one
count of Grand Larceny 817.48l(3)(a), Florida Statute (possession of stolen
goods) that was a Third Degree Felony and one count of Scheme to Defraud,
which the State Prosecutor illegally enhanced to a Second Degree Felony.
This pro se Petitioner cited State and Federal case laws in which the
honorable Supreme Court of Florida Justice's, as well as the honorable
Supreme Court of the United States Justice’s specifically addressed this
identical claim and each Defendant/Petitioner sentences were corrected
because the honorable Court’s did in fact find that they violated the Double
Jeopardy Clause.
This Petitioner directs the honorable Supreme Court of the United
States Justice’s attention to Pizzo Vs. State, 945 So. 2d 1203 (2006) in which
the honorable Supreme Court of Florida Justice’s clearly stated in part:

7

“A comparison of statutory elements is the proper
method for determining a lesser offense in the double
jeopardy context and based upon a comparison of the
statutory elements, we find that grand theft is a
lesser offense of organized fraud. Accordingly, we
quash Pizzo and approve Donovan Vs. State, 572 So.
2d 522 (Fla. 5th DCA 1990).
This Petitioner’s charges/sentences are identical and fall under the
Double Jeopardy Clause protection but neither the State or Federal Courts
have chosen to address the true merits of Petitioner’s Double Jeopardy
violation but have instead utilized procedural bars to deny Petitioner’s
motions/petitions. The fact that in Brinegar Vs. United States, 338 U.S. 160
(1949); Jackson Vs. Virginia, 443 U.S. 307 (1979) and Leland Vs. Dregon, 343
U.S. 790 (1952) the honorable Supreme Court of the United States Justice’s
as well ruled on this identical violation of Double Jeopardy and did as well
order Brinegar Jackson and Leland sentences vacated/reversed, a relief
which this pro se Petitioner has strongly asserted he has been entitled to as
well because Petitioner’s Double Jeopardy violation claim is well documented
on the Plea Colloquy/Sentencing transcript which is being attached to this
Certiorari, so there’s no doubt it’s on the face of the record.
This Petitioner argues that the honorable Supreme Court of the United
States Justice’s as the Court of last resort has a higher duty to utilize its
official authority to address the merits which Petitioner’s Double Jeopardy
claim raises and to enter an order vacating Petitioner’s illegal sentence. As

2

this Petitioner has shown how his Fourth; Fifth; Sixth and Fourteenth
Amendment of the United States Constitution has continually been violated
and the Petitioner petitions the honorable Supreme Court of the United
States Justice’s to allow justice to be served by once and for all because
Petitioner’s sentences are illegal in violation of the Double Jeopardy Clause
that no procedure bar ruling strips the honorable Court from performing its
lawful duty.
The Double Jeopardy Clause does not bar cumulative punishments
stemming from a single offense of theft 812.014, Florida Statute when
Congress intends to prescribe cumulative punishments. In the cumulative
punishment context, the “interest that the Double Jeopardy Clause seeks to
protect” is one “limited to ensuring that the total punishment did not exceed
that authorized by the legislature.” Jone v. Tomas, 491 U.S. 376, 381, 109 S.
Ct. 2522, 2525, 105 L. Ed. 2d 322 (1989) (quoting United States v. Halper,;
490 U.S. 435, 450, 109 S. Ct. 1892, 1903, 104 L. Ed. 2d 487 (1989).
In the instant case we address a sentence that violates double jeopardy
by a post sentencing enhancement that is clear from that record, and is thus,
“illegal.”
Respectfully submitted,

ilCtf! Q
OL
Noe/Aldana, DC #J42034

9

“*•

I

1
I

1

CONCLUSION

The petition for a writ of certiorari should be granted.

i

Respectfully submitted,

7
Date:

'IWarta

JttnP 2H

/202J
i

i

>i

i ■

i

»
i

10

